Audit of the National Aeronautics and Space Administration’s Fiscal Year 2011 Financial
Statements (IG-12-004, November 15, 2011)

The Office of Inspector General contracted with the independent public accounting firm
PricewaterhouseCoopers LLP (PwC) to audit NASA’s financial statements in accordance with
the Government Accountability Office’s Government Auditing Standards and the Office of
Management and Budget’s Bulletin No. 07-04, “Audit Requirements for Federal Financial
Statements,” as amended.

The audit resulted in an unqualified opinion on NASA’s fiscal year (FY) 2011 financial
statements. An unqualified opinion means that the financial statements present fairly, in all
material respects, the financial position and the results of the entity’s operations in conformity
with U.S. generally accepted accounting principles. The results of the FY 2011 audit were a
notable improvement over FY 2010, when the Agency received a qualified opinion due to the
valuation of property, plant, and equipment and materials in prior years and the possible effects
to the 2010 statements of net cost and changes in net position.

PwC also issued its reports on internal control and compliance with laws and regulations. For
FY 2011, PwC identified two significant deficiencies related to (1) the environmental liability
estimation process and (2) privileged user access controls and monitoring of the financial
management system environment. During the audit, PwC identified no instances of significant
noncompliance with applicable laws and regulations.

See the Financials section of NASA’s FY 2011 Performance and Accountability Report for the
Inspector General’s transmittal letter and PwC’s audit reports.
http://www.nasa.gov/pdf/636349main_NASA-FY2011-PAR-4-3-2012.pdf
